LAW OFFICE OF PETER GOLDBERGER
50 Rittenhouse Place
Ardmore, PA 19003-2276
(610) 649-8200

Of Counsel:

Anna M. Durbin

FAX (610) 649-8362

Peter Goldberger
Pamela A. Wilk

E-mail peter.goldberger@verizon.net

May 8, 2020
Via Electronic Filing
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Pennsylvania v. Joseph J. Davis, No. 19-1254
Application for Extension of Time to File Brief in Opposition
To the Clerk:
I am counsel of record for the respondent, Joseph Davis. The petition in this case
was filed on April 20, 2020, and docketed on April 29. Accordingly, the respondent’s
Brief in Opposition is due Friday, May 29, 2019. Due to counsel’s many pre-existing
commitments in this Court and in the Courts of Appeals, and the need to coordinate
a legal team that is working from home in four different cities (and other challenges
presented by the ongoing coronavirus pandemic), I request pursuant to Rules 15.3
and 30.4, that the Court grant an initial 60-day extension of time to file the respondent’s Brief in Opposition, to and including July 28, 2020. We note that petitioner
received multiple extensions to file (utilizing the full 150 days), and that the petition
will not be conferenced until next Term, in any event. Deputy A.G. Stoycos, counsel
of record for petitioner, has kindly authorized the undersigned to advise the Court
that petitioner has no objection to the requested extension.
Respectfully,
PETER GOLDBERGER
Attorney for the Respondent
cc (via email and electronic filing):
William R. Stoycos, Deputy Att’y Gen.

